SUPPLEMENTAL APPENDIX

1a
APPENDIX A
No. 18-2209, -2230, -2260, -2273
United States Court of Appeals
for the Federal Circuit
________________________
APOTEX INC, ET AL.,
Appellants,
v.
NOVARTIS PHARMACEUTICALS
CORPORATION,
Appellees.
________________________
On Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in IPR No. 2017-00854
________________________
DECLARATION OF ANTHONY TABASSO
IN SUPPORT OF
ARGENTUM’S OPPOSITION TO
NOVARTIS’S MOTION TO DISMISS
_______________________

2a
I, Anthony Tabasso, declare:
1.
I am the President and Chief Executive
Officer (CEO) for KVK-Tech, Inc. (“KVK”), a leader in
the development and manufacture of high quality,
FDA-approved drug products based in Newtown, PA.
Unless otherwise stated, I have personal knowledge of
the facts set forth herein and, if called as a witness, I
could and would testify competently thereto.
2.
KVK currently has over 50 research scientists working in labs supported with state of the art
development and testing equipment. Continuous investments into KVK’s Research and Development
Center enable us to develop drug products across multiple therapeutic indications and dosage forms. KVK
has over 34 approved abbreviated new drug applications (“ANDAs”), and has developed and filed several
paragraph IV filings under the Hatch-Waxman Act for
approval by the Food and Drug Administration. KVK
has a multi-billion tablet and capsule annual capacity.
3.
I have reviewed the Declaration of Jeffrey
Gardner of September 10, 2018, including paragraphs
¶¶ 4-12. I agree with the contents of this Declaration
with regard to all issues relating to KVK. Moreover,
the Declaration of Jeffrey Gardner properly characterizes the business relationship between Argentum
Pharmaceuticals LLC (“Argentum”) and KVK.
4.
KVK is committed to expansion, and in
2015 KVK purchased a 461,000-square-foot facility
from Lockheed Martin in Newtown, Pennsylvania and
a 250,000-square-foot facility in Langhorne, Pennsylvania.
Ex. 1, KVK Vision 2020, available at
https://www.kvktech.com/our-products/vision-2020/;

3a
Ex. 2, Natalie Kostelni, Lockheed Martin sells large
Newtown site to pharma company, Philadelphia Business Journal (Mar. 4, 2015). KVK has spent the last
three years building out these facilities to make them
state-of-the-art pharmaceutical manufacturing facilities. KVK intends to use these facilities to manufacture drugs developed through its joint collaboration
with Argentum. The generic version of PAZEO® will
be produced in KVK’s new manufacturing space which
will come online in the next year.
5.
Argentum and KVK are jointly pursuing a
generic version of GILENYA® (fingolimod) (“fingolimod product”). The ANDA for the fingolimod
product will likely be filed within the next 8-10
months. Both KVK and Argentum have been diligent
in working to bring the ANDA to readiness for filing.

4a
I declare under penalty of perjury under the
laws of the United States of America that the foregoing is true and correct.
Executed on
September 10, 2018 .
Date: September 10, 2018
Anthony Tabasso
/s/ Anthony Tabasso

5a

Exhibit 1

6a
Vision 2020
(http://www.kvktech.net/wp-content/uploads/2015/07/
vision2020.png)
“By 2020, KVK will apply its relentless drive to manufacture high-quality, affordable generics in every
major dosage form,” states Anthony Tabasso, CEO
and President of KVK Tech. “And, all of our products
will be made in the USA, right here in Pennsylvania.”
KVK is committed to expansion through alliances
across all phases of operations, which is evidenced by
the current construction of a 250,000-square-foot sterile injectable plant in nearby Langhorne and the purchase of the 461,000-square-foot Lockheed-Martin
complex in Newtown.
We continue to explore strategic opportunities to add
to our expanding portfolio and are aggressively pursuing research and development prospects, including investment in new molecular entities.
And, we continue with developments in oral solids,
such as extended or slow release tablets or capsules,
all the while maintaining high manufacturing standards and exemplary customer service.

7a

Exhibit 2

8a
Lockheed Martin sells large N ewtown site to
pharma company
Mar 4, 2015, 8:25am EST
Updated: Mar 4, 2015, 9:07am EST
KVK-Tech Inc., a specialty pharmaceutical company,
has entered into an agreement to buy Lockheed Martin’s Newtown, Pa., property.
Lockheed put the site up for sale last summer and
KVK said in a statement that it has the property under agreement and is scheduled to close on the transaction in June.
The property at 100 Campus Drive has 460,514
square feet of office, lab and high-tech manufacturing
space in a series of buildings. It also includes a conference center that was constructed in 2010. The
property is approved for an additional 192,000 square
feet of office space.

How much the company paid couldn’t be confirmed
but it was listed for $30 million. KVK is now located
at 110 Terry Drive in Newtown.

9a
Lockheed will remain in the complex until the end of
the year and KVK will begin to fit the space out beginning in January 2016.
In a statement, Anthony Tabasso, president and chief
executive officer at KVK, said: “We are excited to add
the Lockheed Facility to provide for the next stage of
KVK’s growth. In doing so, KVK is renewing its commitment to the Newtown business community. We expect to create quality jobs here over the next several
years as we continue to manufacture high-quality
pharmaceuticals exclusively in the USA.”
How many jobs couldn’t be determined.
Lockheed used the Newtown complex for its commercial and military satellite work and has undergone a
reorganization in which it no longer needs the facility.
JLL arranged the sale.
Natalie Kostelni
Reporter
Philadelphia Business Journal

10a
APPENDIX B
No. 18-2209, -2230, -2260, -2273
United States Court of Appeals
for the Federal Circuit
________________________
APOTEX INC, ET AL.,
Appellants,
v.
NOVARTIS PHARMACEUTICALS
CORPORATION,
Appellees.
________________________
On Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in IPR No. 2017-00854
________________________
DECLARATION OF JEFFREY GARDNER
IN SUPPORT OF
ARGENTUM’S OPPOSITION TO
NOVARTIS’S MOTION TO DISMISS
_______________________

11a
I, Jeffrey Gardner, declare:
1.
I am the Chief Executive Officer (CEO) for
Argentum Pharmaceuticals LLC (“Argentum”). I
have served in this position since January 1, 2017.
Unless otherwise stated, I have personal knowledge of
the facts set forth herein and, if called as a witness, I
could and would testify competently thereto.
2.
As the CEO at Argentum, a pharmaceutical company, I am involved in many aspects of the
business. My job responsibilities include, among
other things, managing the overall operations and resources of Argentum, developing Argentum’s strategy,
and creating and implementing Argentum’s vision
and mission. I have also been actively involved in all
aspects of the dispute between Argentum and Novartis AG and now Novartis Pharmaceuticals Corporation (collectively, “Novartis”), including Argentum’s
challenge to Novartis’s U.S. Patent No. 9,187,405
(“ ’405 patent”) (Ex. 1) in IPR2017-01550, which was
consolidated in IPR 2017-00854 and the subsequent
appeal to the United States Court of Appeals for the
Federal Circuit following a final written decision from
the Patent Trial and Appeal Board.
3.
Argentum was incorporated in May of
2015. Although a young company, Argentum has already pursued generic versions of multiple products to
bring to market, including, but not limited to, generic
versions of VIMPAT®, PAZEO®, ZYTIGA®, RESTASIS®, AFINITOR®, TRAVATAN Z®, DYMISTA®,
JUBLIA® and CIALIS®. See generally Ex. 2, Press
Release, Argentum Pharmaceuticals Succeeds in
Starting Patent Cancellation Trial Against UCB’s

12a
VIMPAT® (May 23, 2016); Ex. 3, Press Release, Argentum Pharmaceuticals and KVK Tech Succeed in
Starting Patent Cancellation Trial Against Alcon’s
PAZEO® (Aug. 1, 2016); Ex. 4, Press Release, Argentum Pharmaceuticals Succeeds in Starting Patent
Cancellation Trial Against Janssen’s ZYTIGA® (Sept.
19, 2016); Ex. 5, Press Release, Argentum and Alcon
Settle Patent Dispute Over PAZEO® (Nov. 30, 2016);
Ex. 6, Press Release, Argentum Persists in Challenging the “Evergreening” Patent on UCB’s VIMPAT®
(Mar. 23, 2016); Ex. 7, Press Release, Argentum Pharmaceuticals and Allergan Settle Patent Dispute Over
RESTASIS® (Apr. 18, 2016); Ex. 8, Press Release, Argentum Pharmaceuticals Succeeds in Starting Patent
Cancellation Trial Against Novartis’s AFINITOR®
(Sept. 29, 2017); Ex. 9, Press Release, Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation
Trial Against Mylan’s DYMISTA® (Sept. 29, 2017);
Ex. 10, Press Release, Argentum Pharmaceuticals
Succeeds in Starting Patent Cancellation Trial
Against Alcon’s TRAVATAN Z® (Sept. 29, 2017); Ex.
11, Press Release, Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against
Valeant’s JUBLIA® (Nov. 13, 2017); Ex. 12, Press Release, Argentum Pharmaceuticals Wins Patent Invalidation Trial against the Sole Remaining Patent Protecting Janssen’s ZYTIGA® (Jan, 17, 2018); Ex. 13,
Press Release, Argentum Pharmaceuticals Wins Patent Invalidation Trial Against Patent on Valeant’s
JUBLIA® (June 7, 2018); Ex. 14, Press Release, Argentum Pharmaceuticals and Eli Lilly Settle Patent
Dispute Over CIALIS® (Aug. 22, 2017). Argentum
has been granted a license to market generic versions
of multiple “Brand name” drugs prior to the expiration
of the associated patents listed in the U.S. Food and

13a
Drug Administration’s (“FDA”) Approved Drug Products with Therapeutic Equivalence Evaluations (“Orange Book”), including, but not limited to PAZEO®,
RESTASIS®, and CIALIS®. See Exs. 5, 7, 14. For
example, Argentum and Novartis company Alcon Research, Ltd. reached agreement for Argentum to market a generic version of PAZEO® in November of 2016.
Ex. 5.
4.
Argentum partners with other companies
to develop generic drug products and to bring them to
market. For example, Argentum has partnered with
KVK-Tech Inc. (“KVK”) to develop generic versions of
multiple generic drug products. KVK is a recognized
leader in the development and manufacture of high
quality, FDA-approved drug products and possesses
operational expertise in packaging, manufacturing,
sales, distribution and research and development.
5.
As part of the collaboration, KVK and Argentum meet regularly to collaborate on choice of
products for development and marketing. Considerations for choice of project are the same as any pharmaceutical company would face, including market
size, technical considerations, regulatory considerations and patent considerations.
6.
In 2015, the same year that Argentum
was incorporated, it is my understanding that KVK
purchased a 250,000-square-foot facility in Langhorne, Pennsylvania, and a 461,000-square-foot facility from Lockheed Martin in Newtown, Pennsylvania.
Ex. 15, KVK Vision 2020, available at
https://wwvv.kvktech.com/our-products/vision-2020/;
Ex. 16, Natalie Kostelni, Lockheed Martin sells large

14a
Newtown site to pharma company, Philadelphia Business Journal (Mar. 4, 2015). It is my understanding
that KVK has spent the last three years building out
these facilities to make them state-of-the-art pharmaceutical manufacturing facilities. Products developed
from the joint collaboration with KVK will be manufactured at these locations, benefiting Argentum
which does not have manufacturing facilities of its
own. In 2015, Argentum was looking for manufacturing space to produce products.
7.
In 2015 Argentum and KVK began negotiations for a collaboration, which culminated in a collaboration agreement between Argentum and KVK,
executed January 29, 2016, which calls for the following joint activities: (i) collaborate using their internal
resources to develop and commercialize pharmaceutical products, including generic drug products and authorized-generic drug products; (ii) prepare, prosecute
and defend IPRs and litigation under the Hatch-Waxman Act and other patent-related strategies germane
to the availability and cost of pharmaceutical products
using internal and external resources; (iii) engage in
settlement discussions and settle legal proceedings;
(iv) share in external costs; and (v) share in any financial benefits.
8.
External costs are shared by Argentum
and KVK on an opportunity-by-opportunity basis. Resulting revenues from the collaboration are distributed between the parties.
9.
A number of products are currently being
jointly developed by Argentum and KVK. Argentum
is currently partnered with KVK to collaborate on the
development and marketing of a generic version of

15a
JUBLIA® (efinaconazole). Part of the responsibilities
of Argentum included requesting, organizing and participating in Pre-ANDA meetings with the FDA, and
participating on a Joint Development Committee that
is responsible for overseeing the development and activities relating to the development of the Product formulations at all stages of development.
10. As part of the Argentum-KVK collaboration, in 2017, Argentum and KVK agreed to jointly develop and bring to market a generic version of
GILENYA® (fingolimod).1
11. On behalf of the generic fingolimod drug
product opportunity, the Abbreviated New Drug Application (“ANDA”) for a generic version of
GILENYA® will be filed by KVK, Argentum’s manufacturing and marketing partner. KVK has represented to me that the ANDA will likely be filed within
the next 8-10 months. Both KVK and Argentum have
been diligent in working toward FDA submission of
the ANDA. Argentum has invested significant manpower and resources to the endeavor.
12. Argentum and KVK intend to market
their generic fingolimod product upon approval of the

1

Novartis lists three patents in the U.S. Food and Drug Administration’s (“FDA”) Approved Drug Products with Therapeutic Equivalence Evaluations (“Orange Book”) as protecting its
GILENYA® 0.5 mg dosage strength drug product: U.S. Patent
Nos. 8,324,283 (“ ’283 patent”), 5,604,229 (“ ’229 patent”), and the
’405 patent. Ex. 17, Orange Book listing. According to the Orange Book, the ’229 patent will expire next year on February 18,
2019, or August 18, 2019 with six months of pediatric exclusivity,
and the ’405 patent will expire June 25, 2027, or December 25,
2027, with six months of pediatric exclusivity. Id.

16a
ANDA by FDA. Argentum has prepared marketing
projections for a variety of scenarios, and revenues
from the generic fingolimod product are projected to
be about $10-50 million per year, with a positive profit
margin. Novartis reported $3.185 billion in net sales
of GILENYA® in 2017. Ex. 18, Excerpts from Novartis Annual Report 2017 at 206.
13. It is my understanding that when an
ANDA is filed, an applicant must certify to FDA in the
opinion of the applicant and the best of applicant’s
knowledge with respect to each patent which claims
the reference listed drug or which claims a use for the
reference listed drug for which the applicant is seeking approval that (1) such patent information has not
been filed, (2) that such patent has expired, (3) the
date on which such patent will expire, or (4) such patent is invalid or will not be infringed by the manufacture, use, or sale of the generic product (“paragraph
IV certification”). 21 U.S.C. § 355(j)(2)(A)(vii). It is
also my understanding that when an applicant includes a paragraph IV certification, the applicant
must give notice to each owner of the patent that is
subject of the paragraph IV certification, and the New
Drug Application (“NDA”) holder for the reference
listed drug that states, among other things, a detailed
statement of the factual and legal basis of the opinion
of the applicant that the patent is invalid or will not
be infringed (“notice letter”). 21 U.S.C. § 355(j)(2)(B).
It is also my understanding that where an applicant’s
ANDA includes a paragraph IV certification and the
applicant sends a notice letter to the patent owner and
NDA holder, if a patent infringement suit is brought
within 45-days after the date of receipt of the notice
letter, the ANDA will not be approved by FDA until

17a
expiration of the 30-month period beginning on the
date of receipt of the notice letter (“30-month stay”),
unless before the expiration of the 30-month stay a
district court decides that the patent is invalid or not
infringed, the FDA approval is effective on the date
the court enters judgment reflecting that decision, or
the date of a settlement order or consent decree signed
and entered by the court saying that the patent is invalid or not infringed. 21 U.S.C. § 355(j)(5)(B)(iii).
14. Based upon the foregoing, Argentum believes that Novartis will inevitably sue Argentum’s
manufacturing and marketing partner KVK for patent infringement upon KVK’s filing an ANDA for a
generic version of GILENYA® with FDA with a paragraph IV certification for the ’405 patent, and sending
a notice letter to Novartis. Argentum therefore believes that invalidating the ’405 patent in the IPR proceeding that is the subject of this appeal is imperative
to removing that patent as an obstacle to approval of
KVK’s ANDA, and manufacturing and selling the generic version of GILENYA® that is the subject of that
ANDA. If KVK cannot gain FDA approval for the
ANDA to market the generic fingolimod product, Argentum and KVK will suffer severe financial harm,
because of its investment in time and resources.
15. It is my understanding that an IPR petitioner or real party in interest or privy of the IPR petitioner in an IPR that results in a final written decision from the Patent Trial and Appeal Board is prohibited from asserting that a patent claim is invalid
on any ground that the petitioner raised or reasonably
could have raised during that IPR in a civil action or
proceeding before the International Trade Commission. 35 U.S.C. § 315(e). If Argentum is not permitted

18a
to remain a party to this appeal, it will also be harmed
because it will be estopped from raising at least the
arguments made in the IPR in another forum. Argentum, as a party in the IPR, will be precluded from
later re-raising the patentability questions at issue
here, and may be estopped from challenging the ’405
patent at all. Applying the estoppel provision will forever bar Argentum from challenging the patentability
of the ’405 patent on these grounds, even though Novartis is virtually certain to bring an infringement
suit against Argentum’s marketing and manufacturing partner KVK once its ANDA is filed, which may
still result in millions of dollars of lost profits to Argentum.
I declare under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.
Executed on
September 10th, 2018 .
Date: 10 SEP, 2018
Jeffrey Gardner
/s/ Jeffrey Gardner

19a

Exhibit 1 (U.S. Patent No. 9,187,405)
Intentionally Omitted,
Available at:
Appeal No. 18-2209, ECF 44-3, at 11-20

20a

Exhibit 2

21a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against UCB’s VIMPAT®
NEWS PROVIDED BY
Argentum Pharmaceuticals →
May 23, 2016, 07:20 ET
NEW YORK, May 23, 2016 /PRNewswire/ —
Today, the U.S. Patent & Trademark Office (PTO)
granted Argentum Pharmaceuticals LLC’s petition for
inter partes review (IPR) against all claims of the sole
remaining patent listed as covering UCB Inc.’s VIMPAT® (lacosamide) drug in the Food & Drug Administration’s Orange Book. The PTO concluded that Argentum has established a “reasonable likelihood that
it would prevail in showing that claims 1-13 of the ’551
patent [U.S. Patent RE 38,551] are unpatentable.”
The decision marks the beginning of an IPR trial that
will be conducted by three specialist patent judges
within the PTO’s Patent Trial & Appeal Board. A final decision on patentability in the IPR is due within
1 year.

22a

Argentum Pharmaceuticals. Balancing the rights of
pharmaceutical innovators and consumers.
In addition to Argentum’s instituted IPR, Argentum
also filed an ex parte reexamination request against
this same patent that raises additional grounds of unpatentability than those in the IPR. A decision by the
PTO on Argentum’s reexamination request is due no
later than July 29, 2016.
Unlike today’s successful institution of Argentum’s
IPR petition, a prior IPR petition filed by a group of
generic companies against this same patent was denied in January 2015. Those companies were Actavis,
Inc., Actavis Laboratories FL, Inc., Actavis Pharma,
Inc., Amneal Pharmaceuticals, LLC, Amneal Pharmaceuticals of New York, LLC, Aurobindo Pharma Ltd.,
Aurobindo Pharma USA, Inc., Breckenridge Pharmaceutical, Inc., Vennoot Pharmaceuticals, LLC, Sandoz
Inc., Sun Pharma Global FZE, and Sun Pharmaceutical Industries, Ltd.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescrip-

23a
tion drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

24a

Exhibit 3

25a
Argentum Pharmaceuticals and KVK Tech Succeed in
Starting Patent Cancellation Trial Against Alcon’s
PAZEO®
NEWS PROVIDED BY
Argentum Pharmaceuticals →
Aug 01, 2016, 06:35 ET
NEW YORK, Aug. 1, 2016 /PRNewswire/ —
The U.S. Patent & Trademark Office (PTO) granted a
petition for inter partes review (IPR) filed by Argentum Pharmaceuticals LLC and its manufacturing
partner KVK Tech, against all challenged claims of
the sole patent listed as covering Alcon’s PAZEO®
(0.7% olopatadine hydrochloride ophthalmic solution)
drug in the Food & Drug Administration’s Orange
Book. Argentum and KVK challenged claims 1-4, 8,
12, 13, 21 and 22 of Alcon’s U.S. Patent No. 8,791,154,
and on July 18, 2016 the PTO concluded there is a
“reasonable likelihood that [petitioner] would prevail
in showing that the claims it challenges are unpatentable”. The decision marks the beginning of an IPR
trial that will be conducted by three specialist patent
judges within the PTO’s Patent Trial & Appeal Board
(PTAB). A final decision on patentability in the IPR
is due within 1 year. The successful institution of this
petition marks the first time the PTAB has instituted
an IPR against this patent.

26a

Argentum Pharmaceuticals. Balancing the rights of
pharmaceutical innovators and consumers.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
www.argentumpharmaceuticals.com
About KVK Tech
KVK is a recognized leader in the development and
manufacture of high-quality, FDA-approved medicines, and possesses operational expertise in pharmaceutical manufacturing, packaging, sales, distribution, research & development, and customer service.
KVK’s expertise runs the gamut and includes solid
oral, powder, liquid, and proprietary dosage technologies. KVK has expanded its capabilities into sterile
products as well, with a 225,000 sq./ft., state-of-theart sterile injectable facility being qualified later this
year. KVK takes pride in its ability to advance medical care and offer low-cost, high-quality alternatives
in response to today’s healthcare challenges. KVK is

27a
one of the few manufacturers of generic pharmaceuticals who handles all of its manufacturing, packaging,
and
distribution
in
the
United
States.
www.kvktech.com

28a

Exhibit 4

29a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against Janssen’s ZYTIGA®
NEWS PROVIDED BY
Argentum Pharmaceuticals →
Sep 19, 2016, 11:00 ET
NEW YORK, Sept. 19, 2016 /PRNewswire/ —
Today, the U.S. Patent & Trademark Office (PTO)
granted Argentum Pharmaceuticals LLC’s petition for
inter partes review (IPR) against all claims of the sole
unexpired patent listed as covering Janssen Oncology,
Inc.’s ZYTIGA® (abiraterone acetate) drug in the Food
& Drug Administration’s Orange Book that will remain after Janssen’s initial patent on the drug expires
later this year. Argentum challenges claims 1-20 of
Janssen’s U.S. Patent No. 8,822,438, which the Orange Book states will expire in 2027.

30a

Argentum Pharmaceuticals. Balancing the rights of
pharmaceutical innovators and consumers.
The PTO concluded that Argentum has established a
“reasonable likelihood that it will prevail with respect
to its challenge to claims 1-20 of the ’438 patent on the
asserted grounds.” The decision marks the beginning
of an IPR trial that will be conducted by three specialist patent judges within the PTO’s Patent Trial & Appeal Board. A final decision on patentability in the
IPR is due within 1 year.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

31a

Exhibit 5

32a
Argentum and Alcon Settle Patent Dispute Over
PAZEO®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Nov 30, 2016, 02:31 EST
NEW YORK, Nov. 30, 2016 /PRNewswire/ —
Argentum Pharmaceuticals LLC, a generic pharmaceutical company, announced today that it has
reached a settlement with Alcon Research, Ltd., related to Argentum’s generic version of PAZEO® (0.7%
olopatadine hydrochloride ophthalmic solution).
Under the terms of the settlement agreement, Alcon
has granted Argentum a license to its U.S. patent covering PAZEO® for a generic version of PAZEO®. The
agreement generally provides that Argentum may
commence marketing its generic equivalent product
sometime prior to the expiration of the patents covering PAZEO®. The specific date on which Argentum
may launch its generic product and other details concerning the settlement have not been disclosed.
PAZEO® is a registered trademark of Novartis AG
Corporation.

33a

Exhibit 6

34a
Argentum Persists in Challenging the “Evergreening”
Patent on UCB’s VIMPAT®
NEWS PROVIDED BY
Argentum Pharmaceuticals →
Mar 23, 2017, 12:09 ET
NEW YORK, March 23, 2017 /PRNewswire/ —
In addition to reaching settlements granting Argentum Pharmaceuticals LLC rights to market lower-cost
generics of other patented drugs, Argentum continues
to challenge the sole remaining patent covering UCB’s
VIMPAT® drug in the U.S. Patent & Trademark Office. Argentum’s challenge of the VIMPAT® patent is
consistent with Argentum’s mission of seeking to invalidate patents that are not innovative and that artificially support high drug prices.

35a

After obtaining successful institution of its challenge
at the PTO where other challengers previously failed,
Argentum was subsequently joined in its effort at the
PTO to invalidate the VIMPAT® patent (U.S. Patent
RE 38,551) by three other generic manufacturers:
Mylan Pharmaceuticals, Inc., Breckenridge Pharmaceutical, Inc., and Alembic Pharmaceuticals, Ltd.
On March 22, 2017, the PTO’s Patent Trial & Appeal
Board (“PTAB”) issued a final written decision that rejected nearly all of UCB’s so-called “objective indicia
of nonobviousness”—giving little to no weight to
UCB’s arguments of “unexpected results,” “industry
praise,” “skepticism,” “failure of others,” and “copying.” Those issues are currently the subject of a pending appeal, filed by other generic challengers, from the
District of Delaware’s August 2016 decision that upheld the validity of the VIMPAT® patent based in part
on these same “objective indicia” arguments. While
the PTAB’s final written decision found insufficient
motivation to modify a “lead compound” via “bioisosteric replacement” from an amine to a methyl, the
pending appeal of the district court decision does not
involve this specific replacement chemistry, because
the “lead compound” in the appeal already contains a
methyl.

36a
The latter “lead compound” was disclosed in a master’s thesis written by a student of the patent’s inventor at the University of Houston, which was not disclosed to the PTO during prosecution. In response to
a Texas Public Information Act request that Argentum filed seeking evidence of the public’s access to the
thesis, the University refused to turn over that evidence. The University stated that its “revenue stream
will be lost or severely diminished ... as a result of the
requested information being produced,” and that “it is
critical that this information be withheld in order to
protect the University from competitive interests.”
The University receives royalties from UCB based on
sales of VIMPAT®.
Commenting on the PTAB’s March 22 decision, Argentum’s CEO Jeffrey Gardner stated, “Given the numerous factual rulings against UCB’s ‘objective indicia’ and the differences between ‘lead compounds’ at
the PTAB and district court appeal, Argentum believes the PTAB decision hurts, rather than helps,
UCB’s chances in the pending appeal of the district
court case. The PTAB recognized that UCB was already awarded two earlier, now-expired U.S. patents
for VIMPAT®, which UCB is ‘evergreening’ with this
third patent that Argentum is challenging.”
Separately, Argentum is also challenging the VIMPAT® patent through an ex parte reexamination the
PTO agreed to institute based on “obviousness-type
double patenting,” which is not at issue in the PTAB
decision. The PTO has preliminarily agreed with all
of Argentum’s unpatentability positions, and the reexamination remains pending.

37a
Mr. Gardner stated, “We look forward to reasonable
prices for this drug being available to Americans, once
the VIMPAT® patent is revoked, whether through Argentum’s IPR, the district court appeal, or the reexamination.”

38a

Exhibit 7

39a
Argentum Pharmaceuticals and Allergan Settle Patent Dispute Over RESTASIS®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Apr 18, 2017, 16:01 ET
NEW YORK, April 18, 2017 /PRNewswire/ —
Argentum Pharmaceuticals LLC, a generic pharmaceutical company, announced that it has reached a
settlement and license agreement with Allergan, Inc.
related to Argentum’s generic version of RESTASIS®
(0.05% cyclosporine ophthalmic emulsion).
The agreement generally provides that Argentum
may commence marketing its generic equivalent product sometime prior to the expiration of the patents
covering RESTASIS®. The specific date on which Argentum may launch its generic product and other details concerning the settlement have not been disclosed.
RESTASIS® is a registered trademark of Allergan,
Inc.

40a

Exhibit 8

41a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against Novartis’s AFINITOR®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Sep 29, 2017, 13:42 ET
NEW YORK, Sept. 29, 2017 /PRNewswire/ —
The U.S. Patent & Trademark Office (PTO) on September 25, 2017 granted Argentum Pharmaceuticals
LLC’s petition for inter partes review (IPR) against all
claims of the last-expiring patent listed as covering
Novartis Pharmaceuticals’ AFINITOR® (everolimus
tablet) drug in the Food & Drug Administration’s Orange Book. Argentum challenges claims 1-3 of Novartis’s U.S. Patent No. 9,006,224, which the Orange
Book states will expire in 2028. The PTO concluded
that Argentum has established a “reasonable likelihood that [Argentum] would prevail with respect to
claims 1-3” of the patent. The decision marks the beginning of an IPR trial that will be conducted by three
specialist patent judges within the PTO’s Patent Trial
& Appeal Board. A final decision on patentability in
the IPR is due within 1 year.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic

42a
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

43a

Exhibit 9

44a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against Mylan’s DYMISTA®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Sep 29, 2017, 14:05 ET
NEW YORK, Sept. 29, 2017 /PRNewswire/ —
The U.S. Patent & Trademark Office (PTO) granted a
petition for inter partes review (IPR) filed by Argentum Pharmaceuticals LLC and its manufacturing
partner KVK Tech, against all challenged claims of
the last-expiring patent listed as covering Mylan Specialty LP’s DYMISTA® (azelastine hydrochloride/fluticasone propionate nasal spray) drug in the
Food & Drug Administration’s Orange Book. Argentum and KVK challenged claims 1, 4-6, 24-26, 29, and
42-44 of U.S. Patent No. 8,168,620, and on August 21,
2017 the PTO concluded there is a “reasonable likelihood that [Argentum] would prevail in showing that
claims 1, 4-6, 24-26, 29, and 42-44 of the ’620 patent
are unpatentable”. The decision marks the beginning
of an IPR trial that will be conducted by three specialist patent judges within the PTO’s Patent Trial & Appeal Board (PTAB). A final decision on patentability
in the IPR is due within 1 year. This institution decision marks the first time the PTAB has instituted an
IPR against any Orange Book listed patent covering
DYMISTA®.

45a

MADE IN AMERICA. All KVK Tech products are
made in the USA in strictest accordance with FDA,
DEA, and DEP guidelines. (PRNewsfoto/Argentum
Pharmaceuticals)
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
www.argentumpharmaceuticals.com
About KVK Tech
KVK is a recognized leader in the development and
manufacture of high-quality, FDA-approved medicines, and possesses operational expertise in pharmaceutical manufacturing, packaging, sales, distribution, research & development, and customer service.
KVK’s expertise runs the gamut and includes solid
oral, powder, liquid, and proprietary dosage technologies. KVK is in the process of expanding its capabilities into aseptic products as well with a 225,000 sq./ft.
sterile injectable facility being qualified this year.
KVK takes pride in its ability to advance medical care
and offer low-cost, high-quality alternatives in response to today’s healthcare challenges. KVK is one

46a
of the few manufacturers of generic pharmaceuticals
which does all its manufacturing, packaging, and distribution in the United States. www.kvktech.com

47a

Exhibit 10

48a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against Alcon’s TRAVATAN
Z®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Sep 29, 2017, 13:47 ET
NEW YORK, Sept. 29, 2017 /PRNewswire/ —
The U.S. Patent & Trademark Office (PTO) granted a
petition for inter partes review (IPR) filed by Argentum Pharmaceuticals LLC and its manufacturing
partner KVK Tech, against all claims of the last-expiring patent listed as covering Alcon’s TRAVATAN
Z® (0.004% travoprost solution) drug in the Food &
Drug Administration’s Orange Book. Argentum and
KVK challenged claims 1-28 of Alcon’s U.S. Patent No.
8,268,299, and on September 22, 2017 the PTO concluded there is a “reasonable likelihood that [Argentum] would prevail at trial”. The decision marks the
beginning of an IPR trial that will be conducted by
three specialist patent judges within the PTO’s Patent
Trial & Appeal Board (PTAB). A final decision on patentability in the IPR is due within 1 year. The successful institution of this petition marks the first time
the PTAB has instituted an IPR against this patent.

49a

MADE IN AMERICA. All KVK Tech products are
made in the USA in strictest accordance with FDA,
DEA, and DEP guidelines.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
www.argentumpharmaceuticals.com
About KVK Tech
KVK is a recognized leader in the development and
manufacture of high-quality, FDA-approved medicines, and possesses operational expertise in pharmaceutical manufacturing, packaging, sales, distribution, research & development, and customer service.
KVK’s expertise runs the gamut and includes solid
oral, powder, liquid, and proprietary dosage technologies. KVK is in the process of expanding its capabilities into aseptic products as well with a 225,000 sq./ft.
sterile injectable facility being qualified this year.
KVK takes pride in its ability to advance medical care
and offer low-cost, high-quality alternatives in response to today’s healthcare challenges. KVK is one
of the few manufacturers of generic pharmaceuticals

50a
which does all its manufacturing, packaging, and distribution in the United States. www.kvktech.com

51a

Exhibit 11

52a
Argentum Pharmaceuticals Succeeds in Starting Patent Cancellation Trial Against Valeant’s JUBLIA®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Nov 13, 2017, 20:02 EST
NEW YORK, Nov. 13, 2017 /PRNewswire/ —
Today, the U.S. Patent & Trademark Office (PTO)
granted Argentum Pharmaceuticals LLC’s petition for
inter partes review (IPR) against all patent claims in
the first patent listed in the Food & Drug Administration’s Orange Book as covering Valeant Pharmaceuticals’ JUBLIA® (efinaconazole topical solution 10%).
Argentum is challenging all claims of U.S. Patent No.
7,214,506 (’506 patent).
In granting Argentum’s petition, the PTO concluded
that Argentum “has established a reasonable likelihood that it would prevail in showing the unpatentability of each of the challenged claims of the ’506 patent.” The decision marks the beginning of an IPR
trial that will be conducted by three specialist patent
judges within the PTO’s Patent Trial & Appeal Board.
A final decision on patentability in the IPR is due by
May 1, 2018.
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical

53a
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

54a

Exhibit 12

55a
Argentum Pharmaceuticals Wins Patent Invalidation
Trial against the Sole Remaining Patent Protecting
Janssen’s ZYTIGA®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Jan 17, 2018, 08:23 EST
NEW YORK, Jan. 17, 2018 /PRNewswire/ —
Today, the U.S. Patent & Trademark Office (PTO) issued a final written decision in Argentum Pharmaceuticals LLC’s inter partes review (IPR) against the sole
unexpired patent listed as covering Janssen Oncology,
Inc.’s ZYTIGA® (abiraterone acetate) drug in the Food
& Drug Administration’s Orange Book. Janssen Oncology, Inc. is a subsidiary of Johnson & Johnson. Argentum challenged all claims (claims 1-20) of
Janssen’s U.S. Patent No. 8,822,438, which the Orange Book states will expire in August 24, 2027.
In today’s decision, the PTO concluded that Argentum
“satisfied its burden of demonstrating, by a preponderance of the evidence, that the subject matter of
claims 1-20 would have been obvious,” and therefore
ordered “that claims 1-20 are held unpatentable.”
Argentum Pharmaceuticals’ CEO Jeffrey Gardner issued the following statement regarding the ruling:

56a
“We are pleased that the PTO has ruled in Argentum’s
favor by holding all claims of the last remaining Orange Book patent for Zytiga to be obvious. The inter
partes review process is an important tool by which
generic and biosimilar companies can create prescription drug savings by ensuring that non-innovative patents do not block competition. Argentum’s core mission is to lower the cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices. We believe that the
PTO’s decision will be upheld if appealed by Janssen,
and will save the US healthcare system billions of dollars over the next decade. Those savings will inure to
the benefit of American patients by improving their
access to the high quality, safe, and effective FDA-approved generic alternatives that they deserve.”
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

57a

Exhibit 13

58a
Argentum Pharmaceuticals Wins Patent Invalidation
Trial Against Patent on Valeant’s JUBLIA®

NEWS PROVIDED BY
Argentum Pharmaceuticals →
Jun 07, 2018, 10:51 ET
NEW YORK, June 7, 2018 /PRNewswire/ —
On June 6, 2018, the U.S. Patent & Trademark Office
(PTO) issued a final written decision in favor of Argentum Pharmaceuticals, finding all claims of U.S.
Patent No. 7,214,506 (“ ’506 patent”) to be unpatentable for obviousness. The ’506 patent is listed in the
Food & Drug Administration’s Orange Book as covering Valeant Pharmaceuticals’ JUBLIA® (efinaconazole 10% solution) drug. According to the Orange
Book, the ’506 patent will not expire until October 5,
2021.
On May 12, 2017, Argentum filed an inter partes review (IPR) petition challenging all claims (claims 1
and 2) of the ’506 patent.
In its final written decision, the Patent Trial & Appeal
Board concluded that Argentum “has shown by a preponderance of the evidence that claims 1 and 2 of the
’506 patent are unpatentable.”

59a
Commenting on the Board’s decision, Argentum’s
CEO Jeffrey Gardner stated:
“Argentum is pleased with the Board’s thorough and detailed decision holding all claims
of the ‘506 claims to be unpatentable. This decision once again shows that the IPR process is
an efficient and effective tool to obtain expert
agency review of Orange Book listed patents
that should not have been granted in the first
place.
Argentum’s core mission is to lower the cost of
prescription drugs by challenging patents that
are not innovative and which artificially support high drug prices. The IPR process has
been shown to work for the benefit of American
patients by improving their access to the high
quality, safe, and effective FDA-approved generic alternatives that they deserve.”
About Argentum Pharmaceuticals
Argentum is a generic drug company with core competencies in intellectual property and pharmaceutical
operations. By working with branded and generic
pharmaceutical companies and healthcare payors, Argentum intends to reduce the overall cost of prescription drugs by challenging patents that are not innovative and which artificially support high drug prices.
http://www.argentumpharmaceuticals.com

60a

Exhibit 14

61a
Argentum Pharmaceuticals and Eli Lilly Settle Patent Dispute Over CIALIS®

NEWS PROVIDED BY
Argentum Pharmaceuticals LLC →
NEW YORK, Aug. 22, 2017 /PRNewswire/ —
Argentum Pharmaceuticals LLC, a generic pharmaceutical company, announced that it has reached a
settlement and license agreement with Eli Lilly and
Company related to Argentum’s generic version of
CIALIS® (tadalifil).
The agreement generally provides that Argentum
may commence marketing its generic product no earlier than September 27, 2018. The specific date on
which Argentum may launch its generic product and
other details concerning the settlement have not been
disclosed.
CIALIS® is a registered trademark of Eli Lilly and
Company.

62a

Exhibit 15

63a
Vision 2020
(http://www.kvktech.net/wp-content/uploads/2015/07/
vision2020.png)
“By 2020, KVK will apply its relentless drive to manufacture high-quality, affordable generics in every
major dosage form,” states Anthony Tabasso, CEO
and President of KVK Tech. “And, all of our products
will be made in the USA, right here in Pennsylvania.”
KVK is committed to expansion through alliances
across all phases of operations, which is evidenced by
the current construction of a 250,000-square-foot sterile injectable plant in nearby Langhorne and the purchase of the 461,000-square-foot Lockheed-Martin
complex in Newtown.
We continue to explore strategic opportunities to add
to our expanding portfolio and are aggressively pursuing research and development prospects, including investment in new molecular entities.
And, we continue with developments in oral solids,
such as extended or slow release tablets or capsules,
all the while maintaining high manufacturing standards and exemplary customer service.

64a

Exhibit 16

65a
Lockheed Martin sells large N ewtown site to
pharma company
Mar 4, 2015, 8:25am EST
Updated: Mar 4, 2015, 9:07am EST
KVK-Tech Inc., a specialty pharmaceutical company,
has entered into an agreement to buy Lockheed Martin’s Newtown, Pa., property.
Lockheed put the site up for sale last summer and
KVK said in a statement that it has the property under agreement and is scheduled to close on the transaction in June.
The property at 100 Campus Drive has 460,514
square feet of office, lab and high-tech manufacturing
space in a series of buildings. It also includes a conference center that was constructed in 2010. The
property is approved for an additional 192,000 square
feet of office space.

How much the company paid couldn’t be confirmed
but it was listed for $30 million. KVK is now located
at 110 Terry Drive in Newtown.

66a
Lockheed will remain in the complex until the end of
the year and KVK will begin to fit the space out beginning in January 2016.
In a statement, Anthony Tabasso, president and chief
executive officer at KVK, said: “We are excited to add
the Lockheed Facility to provide for the next stage of
KVK’s growth. In doing so, KVK is renewing its commitment to the Newtown business community. We expect to create quality jobs here over the next several
years as we continue to manufacture high-quality
pharmaceuticals exclusively in the USA.”
How many jobs couldn’t be determined.
Lockheed used the Newtown complex for its commercial and military satellite work and has undergone a
reorganization in which it no longer needs the facility.
JLL arranged the sale.
Natalie Kostelni
Reporter
Philadelphia Business Journal

67a

Exhibit 17 (Orange Book Listing)
Intentionally Omitted,
Available at:
Appeal No. 18-2209, ECF 44-3, at 71-73

